   BASE REALIGNMENT AND CLOSURE TRANSFER OF THE
  COMMON-USE GROUND-COMMUNICATIONS    ELECTRONICS
    MAINTENANCE MISSION FROM THE SACRAMENTO AIR
   LOGISTICS CENTER TO THE TOBYHANNA ARMY DEPOT


Report Number 98-176                           July 6, 1998




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

BRAC                Base Realignment and Closure
DDMC                Defense Depot Maintenance Council
DLH                 Direct Labor Hour
GAO                 General Accounting Office
                    Ground-Communications Electronics
ZZ:                 Memorandum of Agreement
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY MtlVE
                             ARLNGTON. VIRGINIA22202




                                                                             July 6, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
                 AND TECHNOLOGY
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Base Realignment and Closure Transfer of the
         Common-Use Ground-Communications Electronics Maintenance Mission
         from the Sacramento Air Logistics Center to the Tobyhanna Army Depot
         (Report No. 98-176)


       We are providing this audit report for your information and use. We performed
the audit in response to a request from the Assistant Deputy Under Secretary of
Defense (Maintenance Policy, Programs and Resources). We considered management
comments on a draft of this report in preparing the final report.

        The Army and the Air Force comments conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. John A. Gannon at (703) 604-9176 (DSN 664-9176), email
< jgannon@dodig.osd.mil > , or Mr. Joseph M. Austin at (703) 604-9178
(DSN 664-9178), email < jaustin@dodig .osd.mil > . See Appendix D for the report
distribution. The audit team members are listed inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                            Offke of the Inspector General, DOD

Report No. 98-176                                                         July 6, 1998
   (Project No. 8LB-5002)

       Base Reali    ent and Closure Transfer of the Common-Use
        Ground- F ommunications Electronics Maintenance Mission
                from the Sacramento Air Logistics Center
                     to the Tobyhanna Army Depot


                                   Executive Summary

Introduction. This audit was initiated in response to a request from the Assistant
Deputy Under Secretary of Defense (Maintenance Policy, Programs and Resources)
that we perform a review on the status of the transfer of the common-use ground-
communications electronics (GCE) maintenance mission from the Sacramento Air
Logistics Center (Sacramento) to the Tobyhanna Army Depot (Tobyhanna). The
Assistant Deputy Under Secretary expressed concerns that little progress had been made
toward implementing the Defense Depot Maintenance Council’s plan for transferring
the 1.1 million direct labor hours of work associated with the GCE maintenance
mission and the availability of a skilled work force to transfer to Tobyhanna.

Audit Objectives. The overall audit objective was to determine whether the move of
the GCE maintenance mission from Sacramento to Tobyhanna was in compliance with
the direction of the 1995 Defense Base Closure and Realignment Commission.
Specifically, we determined whether the required equipment was being moved and the
appropriate personnel billets were being transferred to Tobyhanna. We also evaluated
the management control program as it applied to the audit objectives.

Audit Results. Although there were initial delays in transferring the GCE maintenance
mission from Sacramento to Tobyhanna, the transfer appeared to be on schedule to
meet the timelines outlined by the 1995 Defense Base Closure and Realignment
Commission. However, readiness could be adversely impacted in the future if a joint
transition plan is not developed and signed or if adequate Defense Base Realignment
and Closure funding for construction projects and for transferring equipment and
personnel to Tobyhanna is not provided in a timely manner. See Part I for a discussion
of the audit results.

The management controls we reviewed were effective in that no material management
control weakness was identified. See Appendix A for details on the management
control program.

Summary of Recommendations. We recommend that the Commander, Army
Materiel Command, and the Commander, Air Force Materiel Command, promptly
develop and sign a joint transition plan to ensure a smooth transfer of the GCE
maintenance mission from Sacramento to Tobyhanna. We also recommend that the
Commander, Army Materiel Command, refer to the Under Secretary of Defense for
A&T for resolution any disputes concerning funding for transferring the GCE
maintenance mission from Sacramento to Tobyhanna.
Management Comments. The Army and the Air Force agreed to develop and sign a
joint plan by July 1998. The Army also agreed to refer disputes concerning Defense
Base Realignment and Closure funding to the Deputy Under Secretary of Defense
(Industrial Affairs and Installations). A discussion of management comments is in
Part I and the complete text is in Part III.




                                         ii
Table of Contents
Executive Summary                                                               i


Part I - Audit Results
      Audit Background                                                          2
      Audit Objectives                                                          3
      Common-Use Ground-Communications       Electronics Maintenance Mission
        Transfer                                                                4

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                                  14
        Management Control Program                                             15
      Appendix B. Summary of Prior Coverage                                    16
      Appendix C. Report Distribution                                          18

Part III - Management Comments
      Department of the Army Comments                                          22
      Department of the Air Force Comments                                     24
Part I - Audit Results
Audit Background
    The Assistant Deputy Under Secretary of Defense (Maintenance Policy,
    Programs and Resources) requested that we perform this audit. The Assistant
    Deputy Under Secretary expressed concern that little progress had been made to
    implement the recommendations of the 1995 Defense Base Closure and
    Realignment Commission (the 1995 Commission) regarding the transfer of the
    common-use ground-communications electronics (GCE) maintenance mission
    from the Sacramento Air Logistics Center (Sacramento) at McClellan Air Force
    Base, California, to the Tobyharma Army Depot (Tobyhanna), Pennsylvania.
    The Assistant Deputy Under Secretary was concerned about the extent of the
    1.1 million direct labor hour (DLH) work load that would actually materialize at
    Tobyharma, the availability of a skilled work force to transfer to Tobyhanna,
    and the impact on readiness if skilled personnel were not available to transfer to
    Tobyhanna.

    BRAC Recommendation. The 1995 Base Realignment and Closure (BRAC)
    Report, July 1, 1995, recommended that Sacramento be closed and that the
    maintenance missions being performed there be transferred to other depots. The
    BRAC report also recommended that all of the GCE maintenance mission, as
    categorized by the DOD Joint Cross Service Group for Depot Maintenance,’ be
    transferred to Tobyhanna and that the remaining work loads be transferred to
    other DOD depots or to private sector commercial activities as determined by the
    Defense Depot Maintenance Council (DDMC). The 1995 Commission
    directed that the workload transfer include required equipment and appropriate
    personnel. Sacramento is to be closed over a 6-year period (1995 through
    2001), with projected annual savings after closure of $159.7 million.

    Maintenance Mission Transfer. The DOD Joint Cross Service Group for
    Depot Maintenance categorized GCE maintenance mission equipment as
    category seven equipment to include cryptographic/communications security;
    electro-optic and night vision; electronics warfare; navigation aids; radar; radio
    communications; satellite control/space sensors; and wire communications.




    ’ The DOD Joint Cross Service Group for Depot Maintenance is a council of senior Service
      logisticims. The council is chaired by the Deputy Under Secretary of Defense (Logistics).
      The council was created to provide oversight of 1995 BRAC issues regarding logistics and
      mainteuance.
    * The DDMC is a senior level council of Service logistics commanders and senior Service
      logisticians. The council is chaired by the Deputy Under Secretary of Defense (Logistics).
      The council provides oversight of depot maintenance policy issues within DOD.



                                               2
Audit Objectives
     The overall audit objective was to determine whether the move of the GCE
     maintenance mission from Sacramento to Tobyhanna was in compliance with
     the direction of the 1995 Commission. Specifically, we determined whether the
     required equipment was being moved and the appropriate personnel billets were
     being transferred to Tobyhanna. Additionally, we evaluated the adequacy of the
     management control program as it applied to the audit objectives. See
     Appendix A for a discussion of the audit scope and methodology and the review
     of the management control program. See Appendix B for a summary of prior
     coverage.




                                       3
             Common-Use Ground-Communications
             Electronics Maintenance
             Mission Transfer
             There were initial delays in transferring the GCE maintenance mission
             from the Sacramento Air Logistics Center to the Tobyhanna Army
             Depot. The delays were attributed to uncertainties in the status of the
             Sacramento Air Logistics Center and the Air Force’s interpretation of
             the definition of “common-use GCE. W Delays in transferring the GCE
             maintenance mission were also caused by the lack of a formal transition
             plan and the initial lack of a memorandum of agreement between the
             Army and the Air Force. Additionally, delays were caused by
             nonavailability of BRAC funds. However, the transfer of the GCE
             maintenance mission appeared to be on schedule to meet the tin-relines
             outlined by the 1995 Commission.3 Although the transfer was
             continuing, readiness could be adversely impacted in the future if a joint
             transition plan is not developed and signed by the Army and the Air
             Force. Readiness could also be impacted in the future if adequate BRAC
             funding for construction projects and for transferring equipment and
             personnel to Tobyhanna is not provided in a timely manner.



Transferring      the Maintenance Mission
     The 1995 Commission recommended that Sacramento be closed by July 2001
     and the GCE maintenance mission be transferred to Tobyhanna. The 1995
     Commission directed the DDMC to determine and direct the appropriate
     distribution of Sacramento’s other work to DOD depots or to private sector
     commercial activities.

     Memorandum of Agreement. A memorandum of agreement (MOA) between
     the Army and the Air Force, June 12, 1997, amended October 14, 1997,
     establishes the rate of transfer of the maintenance mission and personnel
     equivalents from Sacramento to Tobyhanna. The MOA provides for the
     transfer of work totaling about 1.1 million DLHs and the transfer of
     825 personnel equivalents (billets) to accomplish that work. The MOA requires
     that the transfer of both the maintenance mission and the billets be at the rate of
     20 percent in FY 1998, 40 percent in FY 1999, and 40 percent in FY 2000.




     3 The 1995 Commission did not specify a time frame in which the GCE maintenance mission
       would transfer but directed that Sacramento be closed by July 2001.

                                             4
Common-Use Ground-Communications Electronics Maintenance Mission Transfer




Delays in Transferring             the Maintenance              Mission
     There were initial delays in transferring the GCE maintenance mission from
     Sacramento to Tobyhanna. The actual transfer of equipment and personnel
     could have commenced much sooner than it did. Delays were caused by the
     uncertainties in the status of Sacramento and the Air Force interpretation of the
     definition of common-use GCE. As a result, a formal joint transition plan and
     an MOA between the Army and the Air Force were delayed. When the MOA
     was signed, it called for the transfer of equipment to begin in FY 1998.
     Tobyhanna and Sacramento agreed that the transfer would begin October 1,
     1997. The actual transfer did not begin until November 16, 1997, because
     BFLACfunds were not available to pay for the move until after the National
     Defense Authorization Act for FY 1998 was passed.

     Uncertainties iu the Status of Sacramento. The transfer of the GCE
     maintenance was delayed, inpart, by uncertainties in the status of Sacramento.
     The 1995 BRAC report to the President of the United States recommended the
     closure of Sacramento. The President expressed concerns about the near-term
     costs and the potential impact on the local communities and Air Force readiness.
     The President accept9 the BR4C decision, but directed DOD to pursue
     privatization-in-place at Sacramento. The President also directed the Secretary
     of Defense to retain 8,700 jobs at Sacramento until the year 2001. The
     privatization decision did not specifically address the GCE maintenance mission.
     Because of decisions regarding the privatization initiative and the promise to
     maintain full employment until 2001, Sacramento officials believed that the
     GCE maintenance mission would be included in any future privatization
     initiatives. The pursuit of privatization initiatives resulted in delays in
     developing a transition plan and an MOA. As a result, funding for construction
     projects at Tobyhanna was delayed. The initiative to privatize-in-place was not
     resolved until the National Defense Authorization Act for FY 1998 was passed.
     The National Defense Authorization Act for FY 1998 stated that it is the sense
     of Congress that the GCE workload be transferred to Tobyhanna in adherence to
     the schedule prescribed by the DDMC on March 13, 1997.

     Definition of Work Load. The lack of an agreement on the definition of
     common-use GCE also delayed the transfer of the maintenance mission. The
     1995 BRAC report stated that common-use GCE equipment, as categorized by
     the DOD Joint Cross Service Working for Depot Maintenance, included
     cryptographic/communications security; electro-optic and night vision;
     electronics warfare; navigation aids; radar; radio communications; satellite




    4 Converting the Sacramento Aii Logistics Center from an Air Force facility to a contractor-
      operated facility. Employees would continue performing the maintenance function, but as
      contract employees.



                                              5
Common-Use Ground-Communications Electronics Maintenance Mission Transfer



      control/space sensors; and wire communications. Sacramento officials did not
      agree with the definition in the BRAC report and questioned whether all GCE
      should be included in the transfer. Sacramento officials believed that only
      systems used by more than one Service should be included in the GCE work to
      be transferred to Tobyhanna. The DDMC issued a memorandum in October
      1995, stating that all work on category seven equipment should be transferred
      and specified which equipment should be included.

     Transition Plan. The Army and the Air Force did not meet until March 1996
     to develop a plan for transferring the maintenance mission. The Army and the
     Air Force developed separate plans because the Air Force still believed that
     some of the GCE maintenance mission would be privatized. In December
     1996, the Deputy Under Secretary of Defense (Logistics) directed the Army and
     the Air Force to develop a joint plan. As of June 1998, the Army and the Air
     Force had not completed development and signature of a joint transition plan.

     Memorandum of Agreement. The lack of an MOA between the Army and the
     Air Force delayed the transition. An MOA was not officially signed until
     June 12, 1997, and was amended October 14, 1997. The MOA establishes the
     yearly number of billets to be transferred. It also establishes the means of
     hiring Sacramento employees by Tobyhanna and the responsibilities of the
     Army and the Air Force for the orderly and timely transfer of the GCE
     maintenance mission. The more than two years it took to establish an MOA
     affected the hiring and training of personnel to transfer with the maintenance
     mission.

     Defense BRAC Funding. Status and ~planning uncertainties resulted in budget
     and funding delays. Tobyhamra required minor construction to some existing
     facilities and construction of some new facilities before it could assume the
     entire GCE maintenance mission from Sacramento. The delays caused by the
     uncertainties at Sacramento, the lack of a transition plan, and the lack of an
     MOA resulted in additional delays in budgeting for Defense BIWC construction
     funds to be used at Tobyhanna. The Air Force initially planned to keep the
     GCE maintenance mission until the year 2001 and budgeted for construction to
     support a transfer in 2001. However, when the DDMC approved a 3-year
     transfer plan in March 1997, funds had to be reprogrammed to support the
     DDMC decision. The Air Force delayed providing funds for planning and
     design because it had concerns about the reasonableness of construction cost
     estimates provided by the Army. In addition, Sacramento officials stated that
     equipment could not be transferred as scheduled on October 1, 1997, because
     sufficient BIL4C funds were not available until FY 1998 funding became
     available.




                                        6
Common-Use Ground-Communications Electronics Maintenance Mission Transfer



Status of the Mission Transfer
     With the development and signing of the MOA and other actions by the Army
     and the Air Force, the transfer of the GCE maintenance mission appeared to be
     on schedule to meet the timelines of the 1995 Commission. Management
     concerns that prompted the audit are discussed below.

     Personnel and Training. The Amy and the Air Force developed an MOA to
     ensure sufficient trained personnel would be available to meet the projected
     work load without adversely impacting readiness. The DDMC approved the
     MOA, which calls for the transfer of 825 billets from Sacramento to
     Tobyharma. The planned billet transfer rate is 183 in FY 1998, 321 in
     FY 1999, and 321 in FY 2000. The MOA also provides Tobyhanna the
     opportunity to interview and hire those Sacramento GCE maintenance personnel
     deemed necessary to accomplish the mission. Accordingly, Tobyhanna
     interviewed 200 employees. As of January 26, 1998, Tobyhanna had made job
     offers to 114 Sacramento employees: 91 offers were accepted, 14 offers were
     declined, 1 offer was pending, and 8 offers received no response.

     There were concerns that the GCE maintenance mission at Sacramento will be
     adversely impacted by the continuous loss of personnel. Sacramento officials
     advised us that the loss of skilled GCE maintenance personnel will not be a
     problem because they have the authority to hire skilled personnel to replace
     those who have left Sacramento. Records provided by Sacramento showed that
     it had already replaced some personnel who had separated from Sacramento.
     Sacramento expected to be able to continue to meet mission requirements,
     despite the loss of skilled GCE maintenance personnel, with new hires and
     retraining efforts.

    In accordance with the MOA, specialized training was provided for personnel
    who will be performing maintenance on electro-optic and night vision
    equipment. During November 1997, specialized training was being provided to
    Sacramento personnel who accepted job offers to transfer to Tobyhanna and to
    Tobyhanna employees. Army officials were satisfied with the ongoing training
    efforts and believed that sufficient trained personnel would be available to
    accomplish the GCE maintenance mission in accordance with the MOA and
    without an adverse impact on system readiness.

    Maintenance Mission Transfer. Although there were concerns about non
    transfer of all of the GCE maintenance mission to Tobyhanna, there was no
    evidence that any of the GCE maintenance mission had been privatized or
    transferred to other depots. At the time of the BRAC decision, Sacramento
    provided certified data which showed that GCE maintenance work totaling about
    1.1 million DLHs would be transferred to Tobyhanna. As of January 1998,
    Sacramento estimated the work to be about 938,ooO DLHs. According to




                                       7
Common-Use Ground-Communications Electronics Maintenance Mission Transfer



      Sacramento officials, the decrease of about 162,000 DLHs was due to
      downsizing within DOD or decreasing user requirements. The decrease was not
      supported by documentation.

     Contracting. Sacramento considered contracting as a means of providing
     interim maintenance support for certain weapon systems. We reviewed
     12 major weapon systems being transferred to Tobyhanna. There was no
     evidence that any of the GCE maintenance mission was contracted out.

     Technical Data. Although there were initial management concerns regarding
     the timely transfer of technical data, with the MOA signed, technical data were
     being transferred. For about 2 years after the 1995 BRAC report was issued,
     until a formal MOA was signed by the Army and the Air Force, Sacramento
     resisted providing technical data to Tobyhanna. Sacramento officials explained
     that the unofficial release of technical data containing procedures and steps that
     had not been reviewed and approved by maintenance engineers could result in
     faulty maintenance that might endanger personnel and equipment. We
     concluded that Sacramento’s enforcement of Air Force policy was sound. Since
     the MOA was signed, technical data were being transferred to Tobyhanna. In
     addition, Tobyhanna has been videotaping and documenting repair and teardown
     procedures to assist in training Army employees and acquainting Army
     maintenance engineers with procedures in performing the GCE maintenance
     work load. The Army and the Air Force did not foresee any readiness problems
     arising from the transfer of technical data.

     Readiness. Since the signing of the MOA between the Army and the Air
     Force, training had been initiated and those Sacramento personnel who agreed
     to transfer to Tobyhanna, as well as Tobyhanna personnel, were being trained to
     perform the GCE maintenance mission. The maintenance mission was being
     transferred as planned, and the Army was satisfied with the nrogress of the
     transfer. Readiness will not be effected unless the impedemkn~discussed
     below are not properly managed.



Impediments to Mission Transfer
     The lack of an approved joint transition plan between the Army and the Air
     Force could cause delays in transferring the GCE maintenance mission to
     Tobyhanna. Also, delays in Defense BRAC funding could prevent the timely
     completion of BRAC construction projects and the transfer of the mission
     capabilities and personnel, which would have an adverse impact on readiness.




                                         8
Common-Use Ground-Communications Electronics Maintenance Mission Transfer



     Status of Joint Transition Plan. The 1995 BRAC decision to close
     Sacramento and transfer the GCE maintenance mission to Tobyhanna was
     signed into law on July 1, 1995. The decision required that action be initiated
     within 2 years to implement the transfer. It has been 3 years since the BRAC
     report was issued; however, the Army and the Air Force have not completed
     and signed a joint transition plan.

     A signed joint transition plan is necessary to ensure a smooth transfer of the
     GCE maintenance mission. The plan would outline specific Army and Air
     Force responsibilities and set specific timelines for transferring the GCE
     maintenance mission for each GCE commodity area, such as, radar and radio
     communications. Also, the plan would address BRAC funding requirements for
     construction projects and for transferring personnel and equipment.

     Funding Issues. The future nonavailability of adequate BRAC funds was a
     major concern. Any delays by the Air Force in providing BRAC funding could
     prevent the timely completion of military construction projects necessary to
     accommodate the GCE maintenance mission at Tobyhanna. Additionally,
     delays in BRAC funding could prevent the timely transfer of the mission
     (equipment and personnel), which could have an adverse impact on readiness.

             Construction Projects. To accommodate the GCE maintenance mission
     at Tobyhanna, the Army identified 27 construction projects that needed to be
     funded. The Army estimated that these projects would cost about
     $13.6 million. In order to complete the required construction in time for the
     planned mission transfer, the Army requested that about $12 million be
     provided in FY 1998. The Air Force questioned the planning and design costs
     associated with the construction projects at Tobyhanna. Typical planning and
     design costs in Air Force projects amounted to about 10 percent of total
     construction costs. The Army planning and design costs amounted to about
     13 percent of total construction costs. The needed construction funds were
     made available in November 1997.

            Equipment and Personnel Transfer. The initial portion of the GCE
    maintenance mission that was scheduled to be transferred to Tobyhamra in
    October 1997 was delayed because funds were not available to move the
    required equipment. Tobyhanna officials stated they could have assumed
    approximately 50 percent of the GCE maintenance mission in FY 1997.
    However, the fast portion of the transfer did not take place until
    November 1997. The Air Force maintained that there had been insufficient
    BIL4C funds available to fund all BRACdirected actions.

    The potential for delays will continue until all funding issues are resolved.
    Accordingly, the Army should elevate any funding issues that cannot be timely
    resolved to the Under Secretary of Defense for Acquisition and Technology for
    resolution.




                                        9
Common-Use Ground-Communications Electronics Maintenance Mission Transfer



Conclusion
     Uncertainties concerning privatization at Sacramento, the lack of an MOA
     between the Army and the Air Force, and the lack of a formal joint transition
     plan were the major causes for delays in transferring the GCE maintenance
     mission to Tobyhanna. With the signing of an MOA, the Army and the Air
     Force were able to agree on how planning for transferring the mission
     (equipment and personnel) should proceed. The transfer appeared to be on
     schedule to meet the goals of the 1995 BRAC report. However, if the Army
     and the Air Force do not promptly develop and sign a joint transition plan,
     continued unresolved issues could adversely impact mission readiness. Also, if
     adequate BRAC funding is not provided when needed, the transfer could be
     delayed.



Management       Comments         on the Finding and Audit Response
     Air Force Comments.. The Air Force stated that there were no delays in the
     transfer of the GCE maintenance mission from Sacramento to Tobyhanna. The
     Air Force also stated that the absence of a formal transition plan and a
     memorandum of agreement had no impact on the transfer of the GCE
     maintenance mission because extensive and continuous liaison was affected with
     the Army, the Air Force, and the Defense Depot Maintenance Council.
     Further, the Air Force stated that BRAC funding delays were a result of the
     normal fund authorization process. Other technical concerns included
     equipment categorization, construction projects, privatization, technical data,
     and workload retention.

     Audit Response. The transfer of the GCE maintenance was one of the most
     difficult BRAC decisions for the DOD to implement. As discussed in our
     report, delays did, in fact, occur in planning the transfer, developing
     agreements between the Army and the Air Force to transfer the maintenance
     mission and obtaining the funds to construct or refurbish facilities at
     Tobyhanna. We recognize the difficulties the Air Force has experienced in
     obtaining BRAC funds to support the transfer of the GCE maintenance mission
     to Tobyhanna and that funding delays can be caused by the normal fund
     authorization process. Because of delays, the Assistant Deputy Under Secretary
     of Defense (Maintenance Policy, Programs and Resources) was concerned that
     the readiness of the GCE maintenance mission might suffer because of problems
     with establishing an Army depot maintenance capability and requested this
     audit. The 1995 BRAC report which addressed the transfer of the GCE
     maintenance mission from the Air Force to the Army, stated the realignment
     shall be initiated within two years, or by 1997. At the time of our audit and as
     of the date of this report, a joint transition plan detailing the transfer schedules
     of about 100 systems still had not been developed and signed. The Air Force
     comments stated that a plan will finally be signed in July 1998. We are


                                          10
Common-Use   Ground-Communications       Electronics Maintenance    Mission Transfer



     encouraged that the Army and the Air Force planners have met to develop
     specific dates for each system to be transferred. Strict adherence to the schedule
     developed will avoid difficulties with the assumption of the new mission by the
     Army and avert readiness problems at the gaining depot.


Recommendations         and Management            Comments
     Reworded      Recommendation.   As a result of the realignment of management
     responsibilities by the Under Secretary of Defense for Acquisition and
     Technology, we reworded Recommendation 2.

     1. We recommend that the Commander, Army Materiel Command, and
     the Commander, Air Force Materiel Command, promptly develop and sign
     a joint transition plan to ensure a smooth transfer of the common-use
     ground-communications      electronics maintenance mission from the
     Sacramento Air Logistics Center to the Tobyhanna Army Depot.

     Army Comments. The Army concurred, stating that a comprehensive transition
     plan has been drafted by the Army and the Air Force. The Army indicated that
     the transition plan is scheduled to be signed in July 1998.

     Air Force Comments. The Air Force concurred, stating that the joint
     transition plan will be completed and signed in July 1998.

    2. We recommend that the Commander, Army Materiel Command, refer
    to the Under Secretary of Defense for Acquisition and Technology for
    resolution any disputes concerning Defense Base Realignment and Closure
    funding for transferring the common-use ground-communications
    electronics maintenance mission from the Sacramento Air Logistics Center
    to the Tobyhanna Army Depot.

    Army Comments.      The Army concurred, stating that it must coordinate
    disputes with the Army Staff and Secretariat before referring them to the
    Deputy Under Secretary of Defense (Industrial Affairs and Installations) for
    resolution.




                                        11
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology
    We performed the audit at the Office of the Assistant Deputy Under Secretary
    of Defense (Maintenance Policy, Programs and Resources), Army, and Air
    Force organizations with responsibilities relating to the transfer of the GCE
    maintenance mission from Sacramento to Tobyhanna. We identified and
    reviewed policies, procedures, and practices for implementing BRAC decisions.
    We obtained and reviewed the 1995 BRAC report that directed the transfer of
    the GCE maintenance mission from Sacramento to Tobyhanna. We reviewed
    the President’s letter to the Chairman of the Commission, dated July 13, 1995,
    concerning privatization initiatives at Sacramento. We reviewed the DDMC
    guidance to the transition team responsible for implementing the GCE
    maintenance mission transfer. We also reviewed the joint transition plan that
    was being developed by the Army and the Air Force, and the MOA between the
    Army and the Air Force that establishes transfer goals. Additionally, we
    reviewed budgeting and funding documents relating to the GCE maintenance
    mission transfer, including documents related to construction projects. We
    identified 12 major weapon systems that were scheduled for transitioning. We
    reviewed those systems with the responsible managers to determine what steps
    were being taken to eliminate or reduce readiness concerns. We reviewed
    documents related to the GCE maintenance mission transfer covering the period
    of July 1995 through December 1997.

    Use of Computer-Processed Data. No computer-processed data were used in
    the course of the audit.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from October 1997 through January 1998 in accordance with
    audit standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD. We included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.




                                      14
                                                       Appendix A. Audit Process




Management Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls at Army and Air Force organizations as they
    pertained to the base closure and transfer of the GCE maintenance mission.
    Because we did not identify a material weakness, we did not review
    management’s self-evaluation of those controls.

    Adequacy of Management Controls. The management controls at the Army
    and the Air Force organizations were adequate in that we identified no material
    management control weakness over the transfer of the GCE maintenance
    mission.




                                       15
Appendix B. Summary of Prior Coverage

    The General Accounting Offtce (GAO) and the Army Audit Agency have
    conducted several audits related to 1995 BRAC issues. The audits relevant to
    this report are summarized below.

General Accounting Office
    GAO Testimony No. T-NSIAD-97-111, “Uncertainties and Challenges DoD
    Faces in Restructuring Its Depot Maintenance Program,” March l&1997,
    states that costly excess capacity totaling 50 percent remained in the DOD depot
    system. As the Services seek to privatize a greater share of their depot
    maintenance, the cost of maintaining excess capacity will increase unless
    additional capacity reductions are made. Privatization-in-place at Sacramento,
    rather than eliminating excess capacity, could be about $182 million per year
    more expensive than redistributing the work load to other underused Air Force
    depots.

    GAO Report No. NSIAD-97-13 (OSD Case No. 9333-N), “Air Force Depot
    Maintenance--Privatization-in-Place Plans are Costly While Excess Capacity
    Exists,” December 31, 1996, states that privatizing-in-place rather than closing
    and transferring the depot maintenance work loads at Sacramento would leave a
    costly excess capacity situation at remaining Air Force depots that a workload
    consolidation would have mitigated. Plans to delay many closure-related
    actions until 2001 would substantially reduce future savings envisioned by the
    Commission. Specifically, the delay between 1997 and 2001 could result in a
    net loss of $644.4 million for the Air Force and $24 million for the Army.

    The GAO recommended that the Secretary of Defense require the Secretary of
    the Air Force to take the following actions:

            o Develop required capability in military depots to sustain core depot
    repair and maintenance capability for Air Force systems and conduct and
    adequately document risk assessment for mission-essential work loads being
    considered for privatization at the Sacramento and San Antonio depots.

            o Before privatizing any Sacramento and San Antonio work load,
    complete a cost analysis that considers the savings potential of consolidating the
    San Antonio and Sacramento depot work loads at other DOD depots, including
    savings that could be achieved for existing work loads by reducing overhead
    rates through more efficient capacity use of futed overhead at underused
    military depots that could receive this work load.

            o Use competitive procedures, when applicable, for determining the
    most cost-effective source of repair for work loads at the closing Air Force
    depots.


                                        16
                                         Appendix B. Summary of Prior Coverage



            o Reconsider plans to delay the transfer of the GCE work load from
    Sacramento to Tobyhanna and other delays in transferring work load to the
    public or private sector that are reducing savings estimated by the Commission
    to be achieved from closure and consolidation.

    DOD concurred with each of the recommendations.

    GAO Report No. NSIAD-96-201 (OSD Case No. 9333-M), “Army Depot
    Maintenance--Privatization Without Further Downsizing Increases Costly
    Excess Capacity,” September 18, 1996, states that depot maintenance
    privatization should be approached carefully, allowing for evaluation of
    economic, readiness, and statutory requirements that surround individual work
    loads. Privatizing depot maintenance activities, if not effectively managed,
    including downsizing of remaining DOD depot infrastructure, could exacerbate
    existing capacity problems and the inefficiencies inherent in underuse of depot
    maintenance capacity.

    The report recommended that the Secretary of Defense require the Secretary of
    the of the Army to take the following actions:

            o Develop required capability in military depots to sustain core depot
    repair and maintenance capability for Army systems.

            o Conduct and adequately document a risk assessment for mission
    essential work loads being considered for privatization, using competitive
    procedures, where applicable, to assure the cost-effectiveness of privatizing
    Army depot work loads.

    DOD officials generally agreed with the findings and recommendations and
    stated that the Army’s plans to privatize were tentative and contingent on
    congressional relief from Title 10, United States Code, Section 2466, which
    prohibits the use of more than 40 percent of the funds made available in a fiscal
    year for depot-level maintenance or repair for private sector performance (the
    “60/40” rule) and requires public-private competitions before privatizing depot
    work loads that exceed $3 million.



Army Audit Agency
    Army Audit Agency Report No. AA 98-48, “Base Realignment and Closure
    1995 Construction Requirements, Tobyhanna Army Depot,” April 2, 1998,
    states that Tobyhanna generally supported its base realignment construction
    requirements to accommodate the transfer of the GCE maintenance and repair
    ork from Sacramento. The report contained no recommendations.




                                        17
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Deputy Under Secretary of Defense (Logistics)
      Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs and
         Resources)
   Deputy Under Secretary of Defense (Industrial Affairs and Installations)
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Deputy Chief of Staff for Logistics (Supply and Maintenance)
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Chief of Staff for Installations and Logistics (Director of Maintenance)
Auditor General, Department of the Air Force




                                           18
                                                     Appendix C. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center

Chairman and ranking minority member of each of the following committees and
  subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, Intematio~l Affairs, and Criminal
    Justice, Committee on Governmental Reform and Oversight
  House Committee on National Security




                                           19
Part - III Management Comments
Department of the Army Comments


                                      DEPARTMENTDFTHEARMY
                            ASSlSTANlCHIEF ff STAFF FGR *ISlAl.UllGN MANAGEMENT
                                              6MARMVPENlXGON
                                           WASHINGTON DC ZWlB




    DAIM-BO


    MEMORANDUM         THRU




    FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE (AUDmG).
          400 ARMY NAVY DRNFL ARLINGTON. VA 22202-2884

    SUBJEXX Draft Audit Report on Base Realignment and Closure Ttansfer of the Common-Use Ground-
    Communications Elecvonics (GCE) Maintenance Mission from the Sacmmento Air Logistics Center to
    the Tobyhanna Army Depot project No. 8LB-5002)


    1. Enclosed is the Army’s position and com~nts     on the subject audit report.

    2. Point of contact for this action is Brenda Mendoza. DAM-BO.      703495-8030.




    Ekl
    as
                                                     Assistant Chief of
                                                        for Installation Managemnt


    USAAA (Ms. Rinderknecht)
    DALM-ZR (Mrs. Moore)

    Coordination:
    DASA(I&H) - Mr. Manuel/697-I I55
    ASA         - Mr. Anderhohn/697-5088
    AMCLG-MP - Mr. RusselV617-8249
    DAIM-FDR - Mr. Carter16974 125




                                                       22
Department of the Army Comments




            RETRANSFER                                           OF THE COMMON-t&E                GROUND-
          -CATIONS                ELECTRONICS       MAJNTENANCJZ MISSION FROM Ss                         AJR
                            g
                                                J’RGJECT NO. SLB-5002

        FINDING, There WCR initial delays in ttansfcrring the GCE mahnenance mission from the Sacramento
        AJr Logistics Center to the TobyJnuma Army Depot. The delays were attributed to uncertamties in the
        stams of the Sacramento Air Logistics Center and the Air Force’s interpmmtion of the definition of
        “common-use GCE.” Delays in mtnsferring the GCE maintenance n&ion were dso caused by the lack
        of a formal transition plan and the initial Jack of a mcmwandum of agreement between the Army and Air
        Force. Additionally, delays were caused by nonavailability of BRAC funds. However, the transfer of the
        GCEmaintenance      mission appeared to be on schedule to meet the timelines outlined by the 1995
        Commision. Althou& the transfer was continuing. readiness could be adverseJy impacted in the i%turcif
        adequate BUC funding for construction projects and for transferting equipment and persormel to
        Tobyhanna is not provided in a timly manner.

        RECOMMENDATIONS          FOR CORRECTIVE        ACTJON. ARMY POSJTION. AND ACXONS                 TAKEN:

        RECOMMENDATION           I. We recommend that the Commander, &my Material Command (AMC), and
        the Commander. Air Force Materiel Command (AFMC). promptly develop and sign a joint transition
        plan to ensure a smooth transfer of the common-use ground-communications electronics maintenance
        mission from the Sacramento Air Logistics Center to the Tobyhanna Army Depot.

        ARMY FGSITION. Concur.

       ACTION TAKEN. AMC and AFMC drafted a comprehensive transition plan of over 400 pages
       containing detailed timelines and equipment lists for each system being transferred.

       TARGET DATE. If joint staffing of the draft plan occurs in early May as scheduled.     we expect AMC
       and AFMC signature by July 1998.

       RECOMMENDATION 2 We recommend rbat the Commander, Army MaterJaJ Command, refer to the
       Deputy Under Secretary if Defense (Indu.striaJ Affairs and IttstaJJations) for resolution of any disputes
       concernJng Defense Base ReaJignment and Closure funding for transferring the common-use ground-
       communications electronics maintenance mission from the Sacramento Air Logistics Center to the
       Tobyhanna Army Depot.

       ARMY PGSJTJON. Concur with the intent of the ret ommendation.     Howevu, AMC must coordinate
       with the Army Staff and Army Secmtariat befom refening disputes to the Deputy Under Secretary of
       Defense (Industrial Affairs and Installations) for resolution.




                                                         23
Department of the Air Force Comments


                                       DEPARTMENT OF THE AIR FORCE

                                                   WASHINGTON,    DC




  Office   of the Asdstmt Seomtary
                                                                                             29 May 1998



            MEMORANDUM FOR OAIGIAUD

            FROM:     SAFIFMPF


            SUBJECT:      Management Commknts for DoDlG Draft Report: Base Realignment and Closure
                          Transter of Common-Use Ground Communications Electronics Maintenance
                          Mission from the Sacramento Air Logistics Center to the Tobyhanna Army Depot,
                          (Project SLB-5002)

                    The attached memo provides management comments for the subject draft audit report

                   The SAF/FMPF point of contact is Mr. Dave Sapp or Geoff Brougham, Room 4C-228.
            697-6052/ 693-7142, Fax 614-5809, e-mail broughag@af.pmtagon.mil.




                                                          ,
                                                                 (Financial Manager&t)


             Attachment.
             AFIILMM Memo, 29 May 1998




                                                         24
                                                  Demrtment           of the Air Force Comments




                            DEPARTMENT OF THE AIR FORCE
                            HEADQUAR~RS     UNITED STATES AIR FORCE
                                        WASWNGTON, DC




MEMORANDUM          FOR SAFMF                                                    0 9 BAY l99a

FROM:    AF/Lh4h4

SUBJECT:     DoD-IG Draft Audi! Report on Base Reahgnment and Closure Transfer of the
             Common-Use Ground-Comnwnications Ekctronics Maintenance Mission from
             Sacramento Air Logistics Center to the Tobyhanua Army Depot (Project No. 8LB-
             5002)
        This is in reply to your memorandum requesting the Assistant Secretary of the Air Force
(Financial Management and Comptroller) to provide Air Force comments on subject report.
        We have carefully reviewed this report and concur with its recommendations. The joint
(Air Force and Army) transition plan will be completed and signed in July 1998. We continue to
have technical issues with some of the audirs fwiings. While these have no bearing on our
acceptance of the recommendations, we wish to make our comments (atch) part of our official
response to the audit, and encourage thtiiincorporation into&t final report.Thcse comments
provide detailed explanations of the issues addressed in the report. We believe that they provide
a more accurate assessment of the Ground Communication-Electronics transfer to Tobyhanna
Atmy Depot and thereby enhance the accumcy of the report.




                                                EDWARD C. KOEkfa
                                                Senior Analyst, MaintenanceManagement   Division
                                                D/Maintenance, DCSIInstaJlations & Logistics

Attachment:
USAF comments




                                             25
Department of the Air Force Comments




                                             Air Force Comments
                        Draft DGDIG Audit on Ground Communications Electronics (GCE)
                                      transfer from SM-ALC to TYAD

        1. Reference:   page 2, paragraph 3, sentence I.

            Issue: The Air force disagmes with stating the Commission directed the DoD Joint Cross
        Service Group (JCSG) on what to include in category 7 equipment The JCSG. composed of
        representatives from each Service, determined the composition of all depot maintenance categories
        (incl~ing category 7) without any involvement or direction by the BRAC commission.

           Recommendation: Change the sentence to reflect the Commission’s actual findings and
        recommendations:    me Commission directed McClellan common-use ground
        communication/electronics maintenance work be transferred to Tobyhanna Army Depot,
        Pennsylvania.” (Commission Findings and Recommendations, chapter 1, page l-85)

        2. Reference:   page 4, paragraph 1, sentence 3.

            Issue: We disagree that &lays were caused by the lack of a formal transition plan or the initial
        lack of a memorandum of agreement. The BRAC Commission did not specify a time frame for
        starting the GCE move. Per guidance from the 30 January 96 DDMC meeting, Agreements and
        Assignments, ‘This consolidation will be accomplished by the year 2001.” Following this
        direction, the Air Force/Army IPT held their initial planning meeting 16 July 1996. In January
        1997, the Air Force and Army presented a plan to transfer tht work over a three-year period. In
        March 1997 the DDMC issued a decision that the capability would transfer over three years
        starting in FY98. In March 1997, the Air Force/Army IPT met and agreed to nansfer specific
        systems in each of the dire&d transfii years. In May 1997, the DDMC approved the Air
        Force/Army plan. In June 1997 an Air Force and Army planning team met to develop systcm-
        specific timelii   for each system moving in FY98. At this time, all the systems planned for
        transfer in FY98 have been transferred except one. The timeline for that system schedules the
        equipment movement in July 1998.

           Recommendation:      Delete referenced sentence.

        3. Reference:   page 4, paragraph 1, sentence 4.

        Issue: We disagree that the nonavailability of BRAC funds was an additional delay. While the
        Air Force/Army timelines established a start date for the movement of some required test
        equipment early October, the DoD authorization process did not make funds available at SM-ALC
        until 27 October 1997.

           Recommendation: Change the sentence to read: “Additional delays were a result of the normal
        funds authorization process.”




                                                       26
                                                    Department          of the Air Force Comments




4. Reference:    page 4. paragraph 4.

    Issue: Air Force disagrees the memorandum of agreement (MOA) establishes “...the rate of
transfer of the maintenance mission.” The rate of transfer was established in the Air Force and
Army transition plan and approved by the DDMC in March 1997. The MOA is a
personnekanpower       agreement intended to ensure the availability of skilled personnel to transfer
with the systems. It identifies authorirations and work-yws @an&erring from Air Force to Army
and procedures to IX used to transfer Air Force personnel. StrictIy speaking, the MOA transfer
capability, not workload. The actual workIoad will depend upon TYAD’s negotiation with the
Service’s using commands to satisfy their GCE depot maintenance requirements.. In Addition,
changes to the DOD force structure ultimately affect the level of depot w&load which will be
accomplished at TYAD.

    Recommendation: Change pamgraph 4 to zead, “A memorandum of agreement (MOA)
between the Army and Air Force dated June I2,1997, amended October 14, 1997, was developed
to augment the Transition Plan and reduce opportunity for a negative impact on readiness by
providing a method and a process for TYAD to hire personnel with system specific skill and
experience from SM-ALC. It established the transfer of 825 authorizations over the three-year
period of the transition. It facilitated the requirement to transfer skilled personnel to TYAD to
ensure orderly transition of GCE capability.”

 5. Reference:   Page 5, Zti full pamgraph, sentence 5.

   Issue: We disagree that the MOA called for equipment to move on October 1. The MOA is a
personnel/manpower document. In the MOA. the Air Force and Army agreed personnel would
move in conjunction with dates described in each system timeline. This was done to ensure
experienced personnel were moved when the system capability was transferred.

   Recommendation:       Delete sentence 5.

6. Reference:    page $2”” full paragraph, scmnct 6.

   Issue: We disagree that Tobyhanna and Sacramento agreed the equipment transfer would begin
on October I, 1997. In the planning meetings, Sacramento expressed concern about fimds being
available on October 1 due to the nti    DOD authorization process. This concern contributed to
the reluctance to coordinate on FY98 system timelines. The overall plan, approved by the DDMC,
identified systems to move in FY98. As soon as funds became available, equipment was shipped.

   Recommendation:        Change sekence 6: “Tobyhanna and Sacramento agreed the transfer would
begin in FY98.”




D:tydl9UmiitunnmctusOSRV9111
                           IS Ph4
                                                                                                        2




                                               27
Demrtment    of   the Air Force Comments




       7. Reference: page 5, 3ti full paragraph, sentences 6 and 7.

          Issue: The documentation and discussion provided to the auditors during their visit included the
       SM-ALC closure strategy. The Air Force is not pursuing any privatization efforts, as the draft
       report indicates. The Air Force, in concert with the Army, proposed to the DDMC in January
       1997 a three-year transition plan. In March 1997. the DDMC approved this approach with a start
       date of FY98.

            Recommendation: Delete sentences 6 and 7.

       8. Reference: page 5, 3ti full paragraph, sentence 8.

           Issue: The report states funding for construction projects was delayed due to delays in
       development of a usnsition plan and MOA. The Air Force disagrees that funding for construction
       projects was delayed. In June 1996,S13.6 M was programmed in the FY99 BRAC MJLCON
       budget to handle all construction requirements. The DDMC decision to transfer this work over
       three years, sting in Fy98 instmd of FYOI , drove a budget-Epfopmming requirement. Since
       the reprogramming of MILCON could not occur in time to meet the FY98 time frame, Air Force
       and Army agreed to an alternate eonstruetion execution strategy. Within 30 days of thii
       agmemem, Air Force sent Sl.14M in P&D funds to Corps OfEngineers (COE). The following
       tirneline accurately reflects the construction project evolution:


         Jun 96        - Programmed FY99 MILCON as a single cflbrt in FYOI
       13Mar97         - DDMC approved the three-year transition plan, FY98-00
                       - Reqked MJLCON reprogramming
       06 May 97       - Air Force/Army team agreed a restructure of construction projects which reduced
                       - the MILCON reprogramming requirements to $2.5 M
       23 May 97       - Proposal to use O&M and MlLCON sent to Army
       19 June97       - Army counter proposal which included a S2M increase to MILCON
                       -Reprogramming requirement changed to S4.5 M
          Id 97        -Sl.l4MinP&DsenttoCOE
       14Jul97         - AF sent Sl69K of Minor Construction funds to Tobyhanna
       28 Jul97        - COE requested S 835K in additional P&D
       03 sep 97       - AF sent S15K of Minor Construction to Tobyharma
       24 Nov 97       - AF sent $8.48 M to COE for construction execution
                       - AF received details for additional P&D from Tobyhanna
        16 Dee 97      - AF met with COE and validated S4OOKof the additional requirement
           Jan 98      - AF sent $4OOK in additional P&D to COE
        17 Feb 98      - Request from Army for increase in MILCON from WSM to 35.7 M

            Recommendation: Delete sentence 8.

        9. Reference: page $3” full paragraph sentence 9.



        D:tyk#9llmiimmmemOSR~U~4Z   PM                                                                     3




                                                      28
                                                    Department of the Air Force Comments




   Issue: We disagree that the initiative to privatize in place was dependent on the National
Defense Authorization Act. The Air Force has been pursuing a public/private competition strategy
since August 1996, not privatization.

   Recommendation:     Delete sentence 9.

1d. Reference: page 6. paragraph 1, sentence 5.

    Issue: We disagree that any initiatives were taken to retain GCE maintenance work within the
Air Force. Depot maintenance work performed in the GCE industrial complex includes non-GCE
workloads. The only initiative taken to retain work was for non-GCE workloads (for example,
Navy Hospital Shelters, Transportable Blood Shelters and Marine Photo Processing Vans). Also,
this non-GCE workload is temporary, not tied to SM-ALC, or any depot. The referenced contained
in JCSG Commodity Category 14.

   Recommendation:     Delete sentence 5.

11. Reference:   page 6, paragraph 3, sentence 1.

    Issue: We disagree that the lack of an MOA delayed the transition. The decision to accomplish
a three-year transition was made in March 1997. Immediately, the Air Force/Army IFT met to
identify which systems would move in which years. The FY98 system specific planning was
accomplished starting in June 1997 and the Air Force began moving the equipment in November
1997.

   Recommendation:     Delete the sentence.

12. Reference:   Page 6. paragraph 3, sentence 5

Issue: The last sentence in paragraph 3 states “The more than two years it took to establish an
MOA affected the hiring and training of personnel to transfer with the maintenance mission.” The
hiring and training of personnel was not delayed nor adversely impacted by lack of a MOA. Early
discussions with the Army on ways to fill the Tobyhamra positions included a discussion on filling
the Tobyhanna positions immediately through the DOD Priority Placement Program. While this
method of tilling the positions was not considered optimal for either the Army or Sacramento, it
was an option considered in a timely fashion. The development of the MOA was contingent upon
approval by the DDMC of the 3 year FY98-00 transition of work. Development of the MOA
began shortly after this decision was made and the fining of positions began soon after the final
MOA was signed.

Recommendation: Change paragraph 3 to read as follows: “An MOA was established shortly after
the approval of the 3 year FY98-00 transition by the DDMC. The MOA established the yearly
number of billets to be transferred, the means of hiring the Sacramento employees by Tobyharma,
and the responsibilities of the Army and the Air Force for the orderIy and timely transfer of the
GCE maintenance mission. The MOA was officially signned on June 12,1997 and amended




                                               29
Department of the Air Force Comments




        October 14.1997. Soon after the establishment of the MOA, the process of hiring and training of
        personnel began.”

        13. Reference:   page 6, paragraph 4, sentences 2 and 6.

            Issue: Air Force disagrees there were delays in budgeting for BRAC construction funds to be
        used for Tobyhanna (see item 12). The report states budgeting for construction projects was
        delayed due to delays in development of a transition plan and MOA. Construction budgeting was
        never tied to a formal transition plan or MOA and was never delayed. The original construction
        estimate was included in the Air Force budget for FY99 within 90 days of the original site survey.
        After the DDMC approved the three-year transition plan, the Air Force proposed a new
        construction execution stmtegy within 60 days.

           Recommendation:     Delete sentence 2. Add at the end of sentence 6: “became available on 27
        October 97.”

        14. Reference:   Page 8,2’“’ full paragraph, sentence 1.

           Issue: USAF disagrees that SM-ALC resisted providing data to Tobyhanna. During this time,
        Tobyhanna ordered and received available technical orders through the official Air Force
        Technical Data System. At the time of the audit visit they had ordered 3,232 and received 2,988.

           Recommendation: Change the sentences to read: “For about 2 years after the 1995 BRAC
        report was issued until a formal MOA was signed by the Army and the Air Fbrce, Sacramento
        provided only the of&% Air Force technical orders required for repair to Tobyhanna”

        15. Reference:   page 9, paragraph 4, sentence 1.

           Issue: USAF disagrees with the number 27 which is a number greater than the number of
        construction projects the Army identified to the Air Force for purposes of this report.

           Recommendation:     Change “27” to “23” construction projects.

        16. Reference:   page 9. paragmph 4, sentence 6.

           Issue: USAFdktgmes”...      the planning and design costs amounted to about 13 percent of total
        construction cost.” The figure provided the DoD IG was 14.7 percent.

           Recommendation:     Change the percentage to 14.7.




                                                       30
                                                   Department of the Air Force Comments




17. Reference:   page 9. paragraph 5. sentence 2.3, and 4.

   Issue: We disagree with the impression that the Air Force failed to support timely ttansfer of
the GCE capability. The DDMC directed AFMC to begin moving the GCE workload in FY98
USAF supports the 20140140 plan agreed to by the Army and approved by the DDMC.

    Recommendation: Delete sentence 2.3 and 4 and replace with: “The systems scheduled to
transfer in FY98 did not begin to move to Tobyhanna until November 1997 because funds were
not available to move the required equipment.”

18. Reference:   page IO, paragraph 1.

   Issue: USAF disagrees that uncertainties concerning privatization, lack of a transition plan or
lack of an MOA have deIayed the GCE transition. See previous items 6 and 17.

    Recommendation: Change sentence 1 to read: “The March 1997 DDMC decision to phase the
transition over three years starting in FY98, focused the Air Force and Army on the logistics
planning required to accomplish the transition of the GCE maintenance work from Sacramento to
Tobyhanna.”

19. Reference: Page 4 paragraph 1; page 6, paragraph 4; page 9, paragraphs 2, and 4 ; page 9
paragraph 5 sentence 1; page 10 paragraph 1.

Issue: This report states several times that nonavailability of BRAC funds is a concern of the
Army and that funds were not available in October 1997 to accomplish the initial portion of the
GCE maintenance mission that was scheduled to be transferred to Tobyhanna Army Depot
CTYAD).

Comment: That the report take into consideration what it cites on page 5, 2& full paragraph, “The
actual transfer did not begin until November 16,1997, because BRAC funds were not available to
pay for the move until the National Defense Authorization Act for FY 1998 was passed.” What is
not explicitly stated is that the plan to transfer the GCE maintenance mission to TYAD must
accommodate the schedule for Congressional action to appropriate the BRAC funds. The plan to
transfer the workload must also allow for the ensuing steps ncccss~~y to get tbe funding to its
ultimate destination. These steps involve the Treasury issuing warrants, OSD processing those
warrants and issuing funds to Air StafT, Air Staff issuing the funds to HQ AFMC and HQ AFMC
releasing the funds to the field. It is rare that BRAC funding is available in early October of a
particular fiscal year because of the above process.




                                                                                                     6




                                              31
Audit Team Members

This report was prepared by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.

Shelton R. Young
Raymond D. Kidd
John A. Gannon
Joseph M. Austin
Robert W. Smith
Marc E. Avers
